                                              OFFICE OF THE ASSISTANT
                                              SECRETARY FOR
                                              ADMINISTRATION AND
                                              MANAGEMENT
Office of Inspector General—Office of Audit




                                              THE OFFICE OF THE ASSISTANT SECRETARY FOR
                                              ADMINISTRATION AND MANAGEMENT NEEDS TO STRENGTHEN
                                              ITS OVERSIGHT OF THE PURCHASE CARD PROGRAM




                                                                   Report Number: 06-09-003-07-001 

                                                                   Date Issued:   September 3, 2009 

U.S. Department of Labor                                 September 2009
Office of Inspector General
Office of Audit


BRIEFLY…                                                 WHAT OIG FOUND

Highlights of Report Number 06-09-003-07-001,            OASAM needs to strengthen its oversight of the
OASAM Needs to Strengthen its Oversight of the           DOL purchase card program. An extensive part of
Purchase Card Program, to the Assistant                  the purchase card process is delegated to program
Secretary for Administration and Management,             agencies, which is further delegated to the
issued September 3, 2009.                                respective agency/organization program
                                                         coordinators (A/OPC). Although OASAM did
WHY READ THE REPORT                                      conduct monitoring of high risk purchase card
                                                         transactions in 2007 and again in 2008, it has not
The purchase card program was established in the         monitored A/OPCs to ensure they are effectively
late 1980s as a way for agencies to streamline           implementing established controls over purchase
Federal procurement processes through a low-             card activity for their respective program agencies.
cost, efficient means of attaining goods and
services directly from merchants. Cardholders can        Based on our testing of a statistical sample of
initiate, pay for, and receive items in less time than   purchase card transactions, we estimate with a 95
it takes under the normal procurement process.           percent confidence level that between 44,040 to
Typically, these cards are used for transactions of      49,915, or 73 to 82 percent, of the 60,694
$3,000 or less — the micro-purchase threshold.           purchase card transactions occurring during our
                                                         audit period did not comply with established
For the Department of Labor (DOL), overall control       controls. Such non-compliant transactions
for the purchase card program lies with the Office       increase the risk that fraudulent, improper, or other
of the Assistant Secretary for Administration and        abusive activity could occur without detection.
Management (OASAM). OASAM manages the
program and is responsible for providing                 In addition, 17 of 287 transactions in our review did
management oversight, controls, and technical            not have sufficient documentation to substantiate
assistance. During June 1, 2007 – May 31, 2008,          their legitimacy. We estimate with 95 percent
DOL procured $21.2 million in goods and services         confidence level that between 1,930 to 5,232, or
using purchase cards. Approximately 1,266                three to nine percent, of the 60,694 purchase card
cardholders used these cards and made 60,694             transactions occurring during our audit period
purchase and refund transactions.                        lacked documentation to substantiate their
                                                         legitimacy.
WHY OIG CONDUCTED THE AUDIT
                                                         WHAT OIG RECOMMENDED
Our audit objective was to answer the following
                                                         We made four recommendations to the Assistant
question:
                                                         Secretary for Administration and Management to
                                                         improve management controls over the DOL
Was OASAM’s oversight of the DOL purchase
                                                         purchase card program.
card program sufficient to prevent and detect
unauthorized charges?
                                                         OASAM’s Deputy Assistant Secretary for
                                                         Operations generally agreed with the findings and
READ THE FULL REPORT                                     stated that OASAM plans to take actions to
                                                         address the findings and recommendations to
To view the report, including the scope,                 improve program oversight and compliance.
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2009/06-
09-003-07-001.pdf
                                                            U.S. Department of Labor – Office of Inspector General




Table of Contents 

                                                                                                                    PAGE


Assistant Inspector General’s Report .........................................................................1 


Results and Findings ....................................................................................................2 


Objective – Is OASAM’s oversight of the DOL Purchase Card Program 

sufficient to prevent and detect unauthorized charges?...........................................2 


         Finding – OASAM needs to strengthen its oversight of the DOL Purchase 

                   Card Program...................................................................................2 


Recommendations ........................................................................................................5 


Appendices 


         A. Background ...................................................................................................9 


         B. Objective, Scope, Methodology, and Criteria .............................................11 


         C. Acronyms and Abbreviations ......................................................................13 


         D. Agency Response to Draft Report...............................................................15 





                                                                                           DOL Purchase Card Program

                                                                                           Report No. 06-09-003-07-001 

             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                      DOL Purchase Card Program

                                      Report No. 06-09-003-07-001 

                                            U.S. Department of Labor – Office of Inspector General




U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




September 3, 2009

                         Assistant Inspector General’s Report



Mr. T. Michael Kerr
Assistant Secretary
 for Administration and Management
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210

The U.S. General Services Administration (GSA) administers the Federal government’s
SmartPay® purchase card program, which was established in the late 1980s. The
purchase card program was created as a way for agencies to streamline Federal
procurement processes through a low-cost, efficient means of attaining goods and
services directly from merchants. Cardholders can initiate, pay for, and receive items in
less time than it takes under the normal procurement process. Typically, these cards are
used for transactions of $3,000 or less — the micro-purchase threshold. For the
Department of Labor (DOL), overall control for the purchase card program lies with the
Office of the Assistant Secretary for Administration and Management (OASAM). OASAM
manages the program and is responsible for providing management oversight, controls,
and technical assistance. During June 1, 2007 – May 31, 2008, DOL procured $21.2
million in goods and services using purchase cards. Approximately 1,266 cardholders
used these cards and made 60,694 purchase and refund transactions.

We conducted an audit of the DOL purchase card program to determine whether
OASAM’s oversight of the DOL purchase card program is sufficient to prevent and detect
unauthorized charges.

Our audit covered the DOL purchase card program for the period June 1, 2007 through
May 31, 2008.

To accomplish our objective, we reviewed applicable federal laws and regulations as well
as DOL’s Procedures for the Use of the Government Purchase Card for Micro-Purchases
(DOL policies and procedures); analyzed management information reports; and
interviewed and surveyed staff from OASAM and the Office of the Chief Financial Officer
(OCFO). To assess compliance with purchase card controls, we tested a statistical
sample of transactions that occurred during the period between June 1, 2007 and
May 31, 2008.

                                                                      DOL Purchase Card Program

                                                                      Report No. 06-09-003-07-001 

                                            U.S. Department of Labor – Office of Inspector General


We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objective. Our objective, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

OASAM needs to strengthen its oversight of the DOL purchase card program. OASAM
has delegated an extensive part of the purchase card process to program agencies,
which is further delegated to the respective agency/organization program coordinators
(A/OPC). Although OASAM did conduct monitoring of high risk purchase card
transactions in 2007 and again in 2008, OASAM has not monitored A/OPCs to ensure
they are effectively implementing established controls over purchase card activity for their
respective program agencies. Based on our testing of a statistical sample of purchase
card transactions, we estimate with a 95 percent confidence level that between 44,040 to
49,915, or 73 to 82 percent, of the 60,694 purchase card transactions occurring during
our audit period did not comply with established controls. Such non-compliant
transactions increase the risk that fraudulent, improper, or other abusive activity could
occur without detection.

In addition, 17 of 287 transactions in our review did not have sufficient documentation to
substantiate their legitimacy. We estimate with 95 percent confidence level that between
1,930 to 5,232, or three to nine percent, of the 60,694 purchase card transactions
occurring during our audit period lacked documentation to substantiate their legitimacy.

We made four recommendations that OASAM improve oversight and compliance in the
DOL purchase card program by monitoring DOL program agencies and their A/OPCs;
ensuring cardholders complete mandatory training; coordinating with DOL property
managers to develop better controls over agency assets; and recovering funds for
unauthorized purchases. In response to our draft report, OASAM concurred with our
findings and each of our recommendations. OASAM’s written response to our draft
report is provided in its entirety in Appendix D.

RESULTS AND FINDINGS

Objective – Is OASAM’s oversight of the DOL purchase card program sufficient to
prevent and detect unauthorized charges?

Finding – 	 OASAM needs to strengthen its oversight of the DOL Purchase
            Card Program.

Our audit disclosed that OASAM’s oversight of the DOL purchase card program is not
sufficient to prevent and detect unauthorized charges. Our testing of a sample of 287


                                            2                        DOL Purchase Card Program
                                                                     Report No. 06-09-003-07-001
                                             U.S. Department of Labor – Office of Inspector General


transactions totaling $409,035 found that two key transaction-level controls —
authorization and independent receipt of goods — were not adequately followed. We
found 222 of the 287 transactions were either not properly authorized or the goods
purchased were not independently received. Specifically, of these 222 exceptions
totaling $338,239:

   •	 150 transactions (68 percent) totaling $287,591 were not properly authorized
   •	 72 transactions (32 percent) totaling $50,648, were not independently received by
      someone other than the purchaser.

According to the Government Accountability Office (GAO) Standards for Internal Control
in the Federal Government (GAO Internal Control Standards), transactions and other
significant events should be authorized and executed only by persons acting within the
scope of their authority, as this is the principal means of assuring that only valid
transactions to exchange, transfer, use, or commit resources and other events are
initiated or entered into. The GAO Internal Control Standards also state that the key
duties and responsibilities need to be divided or segregated among different people to
reduce the risk of error or fraud. Segregating duties entails separating the responsibilities
for authorizing transactions, processing and recording them, reviewing the transactions,
and handling related assets. The GAO Internal Control Standards further state that no
one individual should control all key aspects of a transaction or event. Independent
receipt and acceptance of goods helps provide assurance that purchased items are
acquired for only legitimate government need and not for personal use.

Of the 222 transactions where evidence was not available to show proper segregation of
duties was in place, we identified instances of unauthorized purchases related to:
(1) assets not recorded in the DOL Property Management System; (2) sales taxes
inappropriately paid; (3) purchases made with cards assigned to former DOL employees;
(4) a purchase of a prohibited item; and (5) a purchase that exceeded the cardholder’s
authorized spending limit. The results are as follows:

•	 For 14 transactions totaling $67,174, accountable assets such as printers, laptop
   computers, copiers, flat screen monitors, wireless speakers, and keyboards were not
   recorded in the Property Management System. These items can easily be converted
   for personal use resulting in a loss to the Agency. Section 3.6.4, Micro-Purchase of
   Reportable Equipment, of DOL policies and procedures states “when sensitive or
   mission-critical, non-expendable personal property is purchased with a purchase card,
   the cardholder shall follow normal procedures for assuring that the purchase is
   recorded in the appropriate Departmental Property Management System.”

•	 For 5 transactions totaling $6,553, sales taxes were improperly paid on purchases
   and no evidence was provided to show that the sales tax amounts were recovered.
   According to Office of Management and Budget (OMB) Circular A-123, Appendix B,
   Improving the Management of Government Charge Card Programs, Section 11.1, the
   Federal Government is not liable to pay taxes to State and local governments, and
   thus, any such taxes paid must be recovered. When making purchases, Section 3.4,

                                             3                        DOL Purchase Card Program
                                                                      Report No. 06-09-003-07-001
                                           U.S. Department of Labor – Office of Inspector General


   Tax-exempt Status, of DOL policies and procedures instructs cardholders to “…
   always request tax-exempt status for their purchases.”

•	 For 2 transactions totaling $5,063, charges were made on purchase cards assigned to
   former employees. One purchase was made using a card assigned to a former DOL
   employee two months after that person had left the agency. Another transaction
   occurred seven months after the cardholder separated from the agency. Section 3.7,
   Cancelling Purchase Cards, of DOL policies and procedures states “if the cardholder
   is separating from DOL, the purchase card should be destroyed and discarded by the
   A/OPC”.

•	 For 1 transaction of $47, a purchase was made for an item prohibited by DOL policy.
   The cardholder improperly used the card to purchase gasoline for an agency vehicle.
   According to Section 3.3.1, Prohibited Micro-Purchase, of DOL policies and
   procedures, specific items should not be acquired using the purchase card which
   include travel-related expenses.

•	 For 1 transaction of $6,000, a cardholder exceeded the authorized spending limit.
   Despite having a spending limit of $3,000, the cardholder was able to make a $6,000
   purchase. According to Section 1.2, Policies and Limitation, of DOL policies and
   procedures, “the maximum cardholder purchase allowed for a single agency
   requirement will generally not exceed $3,000.”

In addition, we found 17 of the 287 transactions tested totaling $12,934 did not have
sufficient documentation to substantiate their legitimacy. Four of these unsubstantiated
transactions were initiated by cardholders who no longer work for the affected agency.
Although DOL policies and procedures instruct cardholders to retain receipts for 3 years,
they do not address the disposition of these documents when a cardholder leaves the
agency. We estimate with 95 percent confidence level that between 1,930 to 5,232, or
three to nine percent, of the 60,694 purchase card transactions occurring during our audit
period lacked documentation to substantiate their legitimacy.

We attribute the weaknesses identified in the purchase card program to a lack of effective
monitoring. OASAM delegates an extensive part of the purchase card process to
program agencies which, in turn, assign A/OPCs to manage the program, including the
overseeing of agency approving officials and cardholders. However, we found that many
A/OPCs were not performing their assigned duties. OASAM officials acknowledged that
A/OPCs have not always performed as expected. In 2007 and again in 2008, OASAM
conducted reviews of high risk transactions, such as split purchases, transactions that
exceeded the micro-purchase threshold ($3,000), and prohibited purchases. While the
results of these reviews identified questionable transactions, our audit revealed that
OASAM has not taken effective actions to prevent future occurrences of similar types of
transactions. By strengthening the monitoring of program agencies and their A/OPCs,
OASAM can ensure the key controls of proper authorization and segregation of duties
for purchase card transactions are in place and working as intended.



                                           4                        DOL Purchase Card Program
                                                                    Report No. 06-09-003-07-001
                                             U.S. Department of Labor – Office of Inspector General


The structure of delegating a significant portion of the monitoring process to the program
agency level is outlined in DOL policies and procedures. This control structure is
reasonable since A/OPCs better understand the types of purchases required to fulfill their
respective program agencies’ mission and can more appropriately manage approving
officials and cardholders. Spreading the monitoring responsibilities throughout the
agency reduces the risk of unauthorized charges occurring.

We also noted that cardholders must complete federally-mandated training every three
years. A-123, Appendix B, 3.4, requires that “… all program participants … be trained
prior to appointment (and) … take refresher training, at a minimum, every 3 years....”
Cardholder competence in using purchase cards is enhanced by completion of this
training, which provides updates on laws, regulations, and control activities specific to the
purchase card program. Upon completion of this training, Section 2.1, Mandatory
Training, of DOL policies and procedures states “a certificate of completion must be
provided to the A/OPC …”

Of 172 purchase cardholders that we sampled, evidence was not available to show that
78 (45 percent) of the cardholders had fulfilled their training requirements. These same
cardholders were responsible for initiating 20 percent of the unauthorized purchases in
our sample.

OASAM’s oversight over the DOL purchase card program has not been effective in
preventing and detecting unauthorized charges. We estimate with a 95 percent
confidence level that between 44,040 to 49,915, or 73 to 82 percent, of the 60,694
purchase card transactions occurring during our audit period did not comply with
established controls. Such non-compliant transactions increase the risk that fraudulent,
improper, or other abusive activity could occur without detection.

In response to our draft report, OASAM concurred with our findings.

Recommendations

To reduce the vulnerability of the DOL purchase card program to potential improper
acquisitions, DOL program agencies must cooperate and comply with the directives,
regulations, reviews and guidance provided by OASAM. To improve OASAM’s oversight
of the DOL purchase card program, we recommend that the Office of the Assistant
Secretary for Administration and Management:

       1. Implement an effective monitoring and review process to ensure program
          agencies and their delegated A/OPCs are complying with Federal and DOL
          policies for purchase card transactions.

       2. Comply with the federal mandate for all cardholders to complete purchase card
          training every 3 years; and require A/OPCs to comply with DOL policies for
          tracking and documenting cardholders’ completion of this training.



                                             5                        DOL Purchase Card Program
                                                                      Report No. 06-09-003-07-001
                                         U.S. Department of Labor – Office of Inspector General


      3. Coordinate with the DOL property managers to develop controls that ensure
         accountable property paid for with purchase cards has been properly
         accounted for.

      4. Provide guidance to assist A/OPCs in recovering potentially unauthorized
         purchases identified in our audit.


We appreciate the cooperation and courtesies extended to us by OASAM personnel
during the audit.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                          6                       DOL Purchase Card Program
                                                                  Report No. 06-09-003-07-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                7                         DOL Purchase Card Program
                                          Report No. 06-09-003-07-001
                 U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK





                  8                         DOL Purchase Card Program
                                            Report No. 06-09-003-07-001
                                                     U.S. Department of Labor – Office of Inspector General


                                                                                               Appendix A
Background

Purchase cards are a low-cost, efficient means for Federal agencies to streamline the
acquisition process in obtaining supplies and services directly from vendors. GSA
created and administers the SmartPay® program which provides charge cards to
agencies through contracts negotiated with five national banks1. OMB issued
Appendix B to A-123, Improving the Management of Government Charge Card
Programs, to provide agencies guidance on the minimum requirements, as well as
suggested best practices, for operating their charge card programs.

DOL contracts with Citibank Visa for its purchase cards. During fiscal years 1999
through 2007, acquisitions made using the Citibank cards averaged $17.6 million,
peaking at more than $22 million in 2007.

The objectives of the DOL purchase card program are to:

    •	 Reduce the time necessary to obtain small-dollar items;
    •	 Reduce the cost of processing purchase/delivery orders, etc.;
    •	 Replace or provide an alternative to the use of the Standard Form 44 (SF-44),
       "Purchase Order-Invoice-Voucher"; and
    •	 Replace the imprest fund operations with bank convenience checks.

To fulfill these objectives, management has documented policies and procedures for
operating and managing the program. DOL policies and procedures, Procedures for the
Use of the Government Purchase Card for Micro-Purchases, outline management’s
expectation for a control and organizational structure that provides reasonable
assurance purchase cards will be used in authorized transactions that comply with
Federal and agency regulations. Responsibility in implementing these controls has
been delegated throughout the organization - to the OASAM, A/OPCs, approving
officials, and cardholders.

OASAM

OASAM is responsible for providing management oversight, controls, and technical
assistance to program agencies and their designated A/OPC(s). This oversight
includes providing policy guidelines for acquisitions and training.

Agency/Organization Program Coordinators (A/OPC)

Program agencies designate A/OPCs to manage their purchase cards. Some of the
duties assigned to A/OPCs include maintaining records to show cardholders have
completed required training; reviewing purchase card activity to identify and close or

1
 Subsequent to our audit, GSA revised the government charge card program which now is called SmartPay® 2.
Three banks, Citibank, JPMorgan Chase Bank, and U.S. Bank, have been contracted to provide charge cards to
Federal agencies.

                                                      9                           DOL Purchase Card Program
                                                                                  Report No. 06-09-003-07-001
                                          U.S. Department of Labor – Office of Inspector General


suspend inactive accounts; establishing controls to ensure that cardholders and
approving officials submit reconciled bank memo statements and the appropriate
supporting documentation within predetermined time frames; conducting periodic desk
reviews to ensure that micro-purchases comply with program policies; conducting an
agency annual self-assessment/evaluation to review a statistically significant number of
agency purchase card transaction files, bank memo statements, inactive accounts,
single/monthly limits, and training requirements; noting the approval certification for
payments; and signing receiving reports.




                                           10                        DOL Purchase Card Program
                                                                     Report No. 06-09-003-07-001
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix B

Objective, Scope, Methodology, and Criteria

Objective

We conducted an audit of the DOL Purchase card Program to answer the following
question:

Is OASAM’s oversight of the DOL Purchase card Program sufficient to prevent and
detect unauthorized charges?

Scope

Our audit period was June 1, 2007 – May 31, 2008. During this period, DOL purchase
cards were used in 60,694 transactions totaling $21,256,253. This is the total of
transactions incurred by all DOL program agencies. Our work was based on a
statistical sample of 287 transactions totaling $409,035. All DOL program agencies
were subjected to this review.

OASAM assisted the auditors in obtaining a Citibank data file containing transaction
details for purchases made during the audit period. We tested the reliability of the data
file and found a discrepancy between the file totals and reported totals in the GSA
SmartPay® Program Statistics. From June 2007 – May 2008, GSA report DOL
purchase cards were used in 59,738 transactions totaling $21,656,988. Whereas the
Citibank data file showed 60,694 transactions totaling $21,256,253. Inquiries with
OASAM and OCFO provided no explanation regarding the difference. While the data file
did not reconcile to the GSA Smartpay® report amounts, we considered the file to be
materially complete for purposes of meeting our audit objective.

Methodology

We reviewed Federal regulations and DOL policies and procedures; evaluated
OASAM’s Monitoring Reports; interviewed staff from OASAM and OCFO; analyzed
reports on separated and current DOL employees and cross matched this data against
reports listing active DOL purchase cardholders; and surveyed A/OPCs on their job
responsibilities.

   A. To assess compliance with purchase card controls, we statistically tested a
      sample of 287 transactions from a population of 60,694 that occurred during the
      period June 1, 2007 – May 31, 2008. To test authorization, we reviewed
      purchase requests or requisitions from a responsible official, e-mails, and blanket
      authorizations for routine purchases with subsequent review by an approving
      official. As evidence of independent receipt of goods, we accepted any signature
      or initials of someone other than the cardholder on the sales invoice, packing
      slip, bill of lading, or any other shipping or receiving document.


                                           11                        DOL Purchase Card Program
                                                                     Report No. 06-09-003-07-001
                                           U.S. Department of Labor – Office of Inspector General




To accomplish our audit objective, we stratified the population of 60,694 transactions.
The population was stratified into categories based on transactions:

           1.  initiated on a weekend day or holiday,
           2.  involving cash advances,
           3.  in excess of the micro-purchase threshold, $3,000,
           4.  made during fiscal yearend,
           5.  by the same cardholder, on the same day, to the same merchant, and
               when these transactions are combined the total exceeds $3,000
           6. prohibited by policy and regulations
           7. with questionable merchant category codes
           8. with questionable merchant names
           9. charged to cards assigned to former DOL employee

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

In planning and performing our audit, we considered internal controls of the DOL
purchase card program by obtaining an understanding of the program's internal
controls, determined whether internal controls had been placed in operation, assessed
control risk, and performed tests of internal controls in order to determine our auditing
procedures for the purpose of achieving our objective. Therefore, we evaluated the
internal controls pertaining to our objective. Our consideration of the program's internal
controls would not necessarily disclose all matters that might be reportable conditions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected.

Criteria

Procedures for the Use of the Government Purchase Card for Micro-Purchases (DOL
policies and procedures)

OMB Circular A-123, Appendix B, “Improving the Management of Government Charge
Card Programs”

U.S. Department of Labor Manual Series – DLMS 2 - Administration – Chapter 100 –
DOL Property Management

GAO Standards for Internal Control in the Federal Government




                                            12                        DOL Purchase Card Program
                                                                      Report No. 06-09-003-07-001
                                        U.S. Department of Labor – Office of Inspector General


                                                                               Appendix C
Acronyms and Abbreviations


A/OPC         Agency/Organization Program Coordinator
DOL           Department of Labor
GAO           Government Accountability Office
GSA           U.S. General Services Administration
OASAM         Office of the Assistant Secretary for Administration and Management
OCFO          Office of the Chief Financial Officer
OMB           Office of Management and Budget




                                         13                        DOL Purchase Card Program
                                                                   Report No. 06-09-003-07-001
                  U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK 





                   14                        DOL Purchase Card Program
                                             Report No. 06-09-003-07-001
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D

Agency Response to Draft Report




                                   15                        DOL Purchase Card Program
                                                             Report No. 06-09-003-07-001
U.S. Department of Labor – Office of Inspector General




 16                        DOL Purchase Card Program
                           Report No. 06-09-003-07-001
                                   U.S. Department of Labor – Office of Inspector General




IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT: 


Online: http://www.oig.dol.gov/             hotlineform.htm
Email: hotline@              oig.dol.gov

Telephone:          1-800-347-3756
                    202-693-6999

Fax:                202-693-7020

Address:            Office of Inspector General
                    U.S. Department of Labor
                    200 Constitution Avenue, N.W.
Room                       S-5506
                    Washington, D.C. 20210

                                            17              DOL Purchase Card Program
                                                            Report No. 06-09-003-07-001
